INSPECTOR GENERAL’S STATEMENT
SUMMARIZING THE MAJOR MANAGEMENT
AND PERFORMANCE CHALLENGES FACING
THE U.S. DEPARTMENT OF THE INTERIOR




Assignment No.: ER-SP-MOI-0008-2011   October 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                 OCT 1 4 2811
Memorandum

To:             Secretary Salazar

From:           Mary L. Kendall
                Acting Inspector Genera

Subject:       Inspector General's Statement Summarizing the Major Management and
               Performance Challenges Facing the U.S. Department of the Interior
               Assignment No. ER-SP-MOI-0008-2011

        In accordance with the Reports Consolidation Act of 2000, we are submitting what we
determined to be the most significant management and performance challenges facing the U.S.
Department of the Interior (DOl). The challenges listed are for inclusion in DOl's Performance
and Accountability Report for fiscal year 2011 . These challenges reflect those that the Office of
Inspector General (OIG) considers significant to Departmental efforts to promote economy,
efficiency, and effectiveness in its bureaus' management and operations.

        We identified the top management and performance challenges as:

        •   energy management;
        •   climate change;
        •   water programs;
        •   responsibility to Indians and Insular Areas;
        •   Cabell and Indian land consolidation; and
        •   operational efficiencies.

        We took a new approach to identifying DOl's management and performance challenges
this year. We met with DOl officials to gain their perspective and together agreed on the
challenge areas. These areas are important to DOl's mission, involve large expenditures, require
substantial management improvements, or involve significant fiduciary relationships. We believe
DOl could benefit by developing strategies to identifY and address challenges in these areas,
especially in those activities that span bureau and program lines.




                                Office of Inspector General   I Washington, DC
  Office of Inspector General Update Regarding the Top Management
           Challenges for the U.S. Department of the Interior

1. Energy Management

The U.S. Department of the Interior (DOI) has jurisdiction over 1.76 billion acres of the Outer
Continental Shelf (OCS), manages about one-fifth of the land area of the United States, and
manages 700 million acres of subsurface minerals throughout the Nation. DOI lands and waters
generate almost one-third of the Nation’s domestic energy production, resulting in royalties of
approximately $9.5 billion in fiscal year (FY) 2010 and $9.9 billion in FY2009. In an effort to
manage this responsibility more effectively, DOI is undergoing major changes in the area of
energy management. The magnitude of these changes poses significant challenges within DOI’s
energy responsibility.

In the wake of the Deepwater Horizon tragedy, in May 2010 DOI reorganized the Minerals
Management Service (MMS) into the Bureau of Ocean Energy Management, Regulation and
Enforcement (BOEMRE). Subsequent reorganizations have divided MMS into three independent
entities:

       •   As of October 1, 2010, the Office of Natural Resources Revenue (ONRR), reporting
           to the Assistant Secretary for Policy, Management and Budget, has managed the
           revenue collection function.
       •   As of October 1, 2011, the Bureau of Ocean Energy Management (BOEM) will
           manage development of OCS resources.
       •   As of October 1, 2011, the Bureau of Safety and Environmental Enforcement (BSEE)
           will oversee safety and environmental compliance.

DOI faces increased challenges with the development of domestically produced offshore oil and
gas. Offshore oil and gas development constitutes approximately 30 percent of domestically
produced oil and 11 percent of the domestic natural gas supply. The vast majority of this
production occurs in the central and western Gulf of Mexico (GOM). In achieving such levels of
production, the GOM offshore oil and gas industry has reached farther offshore and deeper
undersea with an outdated infrastructure. As the environment in which drilling becomes more
complex, it exerts greater demands on equipment and pipelines. Many of the facilities are larger,
more complex, more technologically sophisticated, and more distant from shore. As a result,
DOI oversight of the energy resources of GOM has become equally more complex and
challenging.

Another challenge DOI faces results from the outdated regulations governing its energy
responsibility. An enormous gap exists between technological advancements and Departmental
rule making. This gap often results in more departures and more applications for permits to
modify. As a result, this increases the burden on BOEMRE staff.

Recent OIG reports have focused on challenges within BOEMRE’s and the Bureau of Land
Management’s (BLM) enforcement program and BLM’s onshore inspections and enforcement

                                                                                                  1
program. The Government Accountability Office (GAO) has also designated DOI’s management
of oil and gas on leased Federal lands and waters as high-risk. Furthermore, the transfer of the
Coastal Impact Assistance Program (CIAP) from BOEMRE to the U.S. Fish and Wildlife
Service (FWS) presents additional challenges to DOI.

Issues facing BOEMRE and BLM
OIG conducted a comprehensive evaluation of BOEMRE’s OCS activities during the beginning
phases of the reorganization, and identified problems in BOEMRE’s policies and practices. OIG
found that although the span of Federal control extends to industry chiefly through regulations,
permitting, and inspections, BOEMRE could benefit from internal analysis of the appropriate
role of industry in its operations. Improvements could result from professionalizing the inspector
series, standardizing training, hiring more inspectors, and strengthening enforcement to ensure
safety compliance. In addition, performing unannounced inspections, conducting inspections in
two-person teams, witnessing high-risk operations, and modernizing the inspections process
could help improve the effectiveness of inspections.

In response to OIG’s findings, BOEMRE has worked for more than a year on program
improvements. BOEMRE enhanced the standards for equipment, safety, and environmental
safeguards in the drilling and production stages of offshore operations by issuing new
requirements for safety equipment, drilling procedures, and workplace safety. To address
conflicts of interest involving BOEMRE personnel, BOEMRE issued a recusal policy that
requires inspections and permitting personnel in field offices to notify their supervisors of any
conflicts. Personnel must request a recusal from performing any official duty in which a conflict
of interest might exist. As a result, inspectors must not perform inspections of facilities of former
employers and must report any attempt by industry or by other BOEMRE personnel to
inappropriately influence or interfere with their official duties.

BOEMRE conducted a workload analysis and succession planning in order to identify and
request additional staffing resources. OIG learned that BOEMRE plans to conduct a Nationwide
search to identify talented personnel to fill many of the key senior positions in the newly created
BOEM and BSEE. BOEMRE will engage in an aggressive recruitment campaign to hire new
engineers, inspectors, scientists, and other experts into the new bureaus.

BOEMRE has also created eleven implementation teams to analyze critical aspects of
BOEMRE’s structures, functions, and processes in conjunction with considering the various
recommendations for improvements received from several sources, including OIG, the
President’s Commission, the National Academy of Engineering, and the OCS Safety Oversight
Board commissioned by Secretary Salazar.

OIG found that BLM faces problems similar to BOEMRE. In a recent review of BLM’s oil and
gas inspection and enforcement program, OIG found many opportunities for improving
inspection strategy, performance of inspections, enforcement actions, training and retention of
inspectors, and reliability of the program’s electronic database. BLM also has a history of not
completing its required number of production inspections. OIG found that inspection efforts are
hampered because of provisions in the bureau’s regulations that have not kept pace with modern
technology.

                                                                                                    2
Government Accountability Office’s 2011 High-Risk List
GAO designated DOI’s management of oil and gas on leased Federal lands and waters as high-
risk because DOI:

       •   does not have a reasonable assurance that it is collecting its share of revenue from oil
           and gas produced on Federal lands;
       •   continues to experience problems in hiring, training, and retaining sufficient staff to
           provide oversight and management of oil and gas operations on Federal lands and
           waters; and
       •   is currently engaged in a broad reorganization of both its offshore oil and gas
           management and revenue collection functions.

With regard to this organizational effort, there are many questions about whether DOI has the
capacity to undertake such reorganization while ensuring proper assessment and collection of
billions of dollars of revenue owed the public and effectively managing oil and gas exploration
and production on Federal lands and waters.

According to GAO, DOI faces ongoing challenges in two additional areas:

       •   Revenue collection. In 2008, GAO reported that DOI collected lower levels of
           revenues for oil and gas production than all but 11 of 104 oil and gas resource
           owners. GAO recommended that DOI reassess its revenue collection policies and
           processes. In response to GAO’s September 2008 report, DOI commissioned a study
           with a target completion date in 2011. This study may reveal the potential for greater
           revenues to the Federal Government.

       •   Human capital. GAO reported that BLM and MMS encountered persistent problems
           in hiring, training, and retaining sufficient staff to meet its oversight and management
           of oil and gas operations on Federal lands and waters. For example, in 2010, GAO
           found that BLM and MMS experienced high turnover rates in key oil and gas
           inspection and engineering positions. As a result, DOI faces challenges meeting its
           responsibilities to oversee oil and gas development on Federal leases, potentially
           placing both the environment and royalties at risk.

DOI reported that it has set a new priority goal focused on completing reforms and
improvements to increase the safety, environmental protection, and accountability associated
with receiving adequate compensation for extraction of oil and gas from Federal lands. DOI
increased budget resources beginning in FY2011 to support reforms and strengthen these
programs. DOI expects these actions will help reduce risk, implement reforms, and effectively
implement reorganization. GAO and OIG will continue to monitor DOI’s progress related to
revenue collection and enforcement.

Coastal Impact Assistance Program
Beginning October 1, 2011, FWS will assume responsibility from BOEMRE for the $1 billion
Coastal Impact Assistance Program (CIAP). CIAP distributes funds to the OCS oil and gas


                                                                                                    3
producing states and coastal political subdivisions (CPS) for the conservation, protection, and
preservation of coastal areas, including wetlands.

BOEMRE implemented and oversaw this program from its inception. In FY2012, however, FWS
will assume responsibility for CIAP. To ensure minimal impact on recipients, DOI faces the
challenge of providing a seamless transfer of approximately $730 million in undistributed funds
from BOEMRE to FWS and transferring approximately 350 open grants. FWS’s migration to
DOI’s Financial and Business Management System (FBMS) and the Treasury’s Automatic
Standard Application for Payments (ASAP) will further complicate the transfer. To be successful
the Department must ensure that:

       •   FWS obtains expertise in the program’s regulations, to include knowledge of
           allowable grant projects;
       •   foundational program knowledge is communicated from BOEMRE to FWS to avoid
           disruption of the grant award process;
       •   BOEMRE properly transfers open grant balances from BOEMRE to FWS without
           limiting the recipient’s access to grant monies;
       •   FWS is fully operational on the FBMS and ASAP systems upon transfer completion;
           and
       •   grant recipients are fully apprised of the transfer and any impacts on the recipients.

DOI has taken steps that are critical in meeting the challenges of the transfer, such as
establishing ongoing meetings to develop a comprehensive plan and timeline and developing a
communication and outreach program. OIG will conduct verification reviews as necessary to
ensure DOI achieves its intended results.

2. Climate Change

The sheer scope of climate change, combined with the difficulty of identifying region-specific
impacts and the need to develop response strategies, poses a significant management challenge to
DOI. DOI manages one-fifth of the Nation’s lands, about 500 million acres within its 394
national park units, 553 wildlife refuges, 71 fish hatcheries, and 248 million acres of public land
that include 21 national conservation areas and 16 national monuments. DOI is also the largest
supplier and manager of water in the 17 western states. The lands and resources managed by
DOI face increasingly complex and widespread environmental challenges associated with
climate change, such as destruction from invasive species, like the pine bark beetle; coastal
erosion; and species moving into habitats they never previously inhabited. Some communities
face increasing issues with water availability and drought due to climate-related changes in
hydrology patterns, which affects farming and other land uses, while other urban and rural areas
face issues with flooding.

DOI faces the challenge of developing relevant scientific information for land, water, and
wildlife managers on a regional basis. DOI also faces the challenge of working across landscapes
and watersheds with other Federal agencies, states, local and tribal governments, and private
partners to formulate shared understandings and common strategies for land and resource

                                                                                                  4
managers consider taking to adapt to the challenges and ensure the resilience of our Nation’s
resources.

DOI has created the Climate Change Adaptation Initiative in an effort to gain effective and broad
collaboration to determine causes, formulate solutions, and implement changes to reduce or
reverse climate impacts to land, water, natural, and cultural resources. The Initiative supports the
development of scientific information and tools needed by land and resource managers as they
make decisions and share information across DOI’s bureaus and interested Governmental and
non-Governmental partners.

DOI is establishing eight Climate Science Centers (CSC) to develop and deliver region-specific
climate-related research, information, and tools. DOI is also developing landscape-specific
scientific evaluations of climate impacts through a Nationwide network of 22 Landscape
Conservation Cooperatives (LCC) that will work collaboratively across jurisdictions and political
boundaries to leverage resources and share science capacity. DOI’s FY2012 goal for the
Initiative is to identify the areas and species ranges in the United States that are most vulnerable
to climate change and implement comprehensive response strategies in these areas.

DOI’s FY2012 budget request for climate change of $175 million supports completion of the
network of LCCs and CSCs, as well as supporting individual bureau adaptation activities. To
ensure maximum coordination in this effort across DOI bureaus, oversight of the Initiative rests
with DOI’s highest leadership. DOI’s Energy and Climate Change Task Force, co-chaired by the
Deputy Secretary and the Counselor to the Secretary, sets the policy direction for the Initiative.
A Climate Change Working Group comprised of deputy-level officials from each bureau meets
regularly to ensure cross-bureau collaboration.

3. Water Programs

As the largest supplier and manager of water in the 17 western states, DOI delivers irrigation to
31 million people, 1 out of every 5 western farmers, and 10 million acres of farmland. Some of
the challenges associated with this responsibility include an aging water infrastructure, rapid
population growth, depletion of groundwater resources, impaired water quality associated with
particular land uses, and land covers. 1 Water needed for human and environmental uses, as well
as climate variability and change, all play a role in determining the amount of fresh water
available at any given place and time.

Prolonged drought has increased water challenges across the Nation, particularly in the West and
Southeast. Drought, in addition to increased demands, exacerbates the challenges facing
traditional water management approaches.

Adding complexity to these challenges is the governance of fresh water, which involves
numerous jurisdictions and a complex array of laws and ownership and insufficient knowledge
about water quantity and quality. DOI faces the challenge of balancing limited water resources
between multiple uses, habitat restoration, and responsibilities to the Endangered Species Act.

1
    Land cover is the physical material at the surface of the earth, such as grass, trees, or asphalt.

                                                                                                         5
With such complex responsibilities comes the challenge of preventing and detecting fraud and
waste to ensure tax dollars are well spent.

DOI’s water sustainability goal, established in 2010, commits DOI to annual targets of
increasing the available water supply for agricultural, municipal, industrial, and environmental
uses in the western United States through the Bureau of Reclamation’s (USBR) conservation-
related programs, such as water reuse and recycling and water-related grants. USBR has
budgeted and implemented programs, including WaterSMART grants and basin studies, to
increase conservation and increase the reliability of water supplies for people while balancing
water needs to advance species and habitat conservation.

In addition, DOI is working toward negotiation, settlement, and implementation of American
Indian water rights settlement claims; pursuing workable solutions to regional issues, like the
California Bay-Delta; and identifying other water conservation efforts across the country.

4. Responsibility to Indians and Insular Areas

Management problems persist in programs for American Indians and island communities. DOI
works with 565 Federally recognized Indian tribes, has trust responsibilities for 112 million
surface and subsurface acres of land belonging to Indian tribes and individuals, and provides
education services to approximately 41,000 Indian children in 183 schools and dormitories.
Some of the Indian Country programs managed by DOI include Indian Trust for Lands and
Funds, Indian Education, Self-Determination, Energy and Economic Development, Indian
Gaming, and Justice Services.

DOI also has responsibilities to seven island communities, including four territories and three
sovereign island nations. DOI provides general administrative supervision of the relations
between the U.S. Government and the territories of American Samoa, the Commonwealth of the
Northern Mariana Islands, Guam, and the U.S. Virgin Islands. For the three sovereign nations,
the Federated States of Micronesia, the Republic of the Marshall Islands, and the Republic of
Palau, DOI administers and oversees U.S. Federal assistance provided under the Compacts of
Free Association. DOI coordinates with the State Department and other Federal agencies to
promote economic development and budgetary self-reliance in these countries.

Indian Affairs
Responsibility to American Indians has consistently been a top management challenge for DOI.
Approximately 28 percent of OIG investigations involve Indian Country issues, and recent OIG
reviews disclosed needed improvements in controls over wildland fire suppression funds and
managing detention facilities’ funding, staffing, and maintenance.

Our July 2011 review of the Bureau of Indian Affairs’ (BIA) use of wildland fire suppression
funds found deficiencies in BIA’s control of these funds that increase the risk of fraud, waste,
and abuse. The most serious deficiencies relate to tribal agreements, cost monitoring, recording
of obligations/expenses, and paying of expenses. Our review revealed that these BIA control
deficiencies jeopardize DOI’s wildland fire suppression effectiveness because fire suppression


                                                                                                   6
funds are shared throughout DOI. The deficiencies have also contributed to the large number of
wildland fire-related cases investigated by OIG and affected the wildland firefighting activities
of states, Indian tribes, and other entities because they share fire suppression responsibilities.
Insufficient bureau-level guidance and monitoring are the major contributors to the deficiencies
identified, particularly concerning those associated with tribal agreements.

Our March 2011 review to evaluate how BIA spent a 48 percent funding increase that it received
for staffing its detention facilities revealed that BIA does not have a budget allocation for
staffing its detention facilities. It also revealed that BIA lacks a financial management system
that identifies, accumulates, and reports on how BIA spends funds agency-wide.

BIA did not address staffing shortages reported in a 2004 OIG report, and detention facilities
remain understaffed. BIA attempted to address the staffing shortage by entering into a $1
million, 1-year contract with the National Native American Law Enforcement Association
(NNALEA) for recruitment services. Because of flaws in the award process and price
negotiations, a vague statement of work, and unspecific contract performance requirements that
our office identified in the contract, BIA terminated the contract after 8 months for convenience.
Since the contractor claimed to have performed most of the work necessary under the terms of
the contract, BIA paid $967,000 for recruitment efforts, which bore little, if any, benefit.

OIG also found that the facilities themselves were in poor condition. As part of the FY2011
goals, DOI is focusing on safety in Indian communities. BIA has been working to address overall
detention operational deficiencies, which includes the recruitment and retention of correctional
officers and improving the overall physical conditions of detention facilities. According to
bureau officials, BIA has developed and begun implementing a recruitment model to hire
correctional officers that has already shown promising practices to help alleviate staffing
shortages. This model includes salary upgrades, open and continuous job vacancies for
correctional officer positions Nationwide, recruitment and retention bonuses, and duty-station
travel allowances. BIA is also working on establishing a system to track the number of various
law enforcement positions agency-wide and account for the allocation and expenditure of law
enforcement funds.

Indian Affairs and its bureaus continue to experience challenges regarding administrative
backlogs from our Office of Investigations. It has had an historical backlog of responses to OIG
for corrective administrative action resulting from allegations investigated. When OIG
investigates an allegation and determines it is administrative in nature, OIG refers the
misconduct to the responsible office. That office then has 90 days to respond on actions taken.
To address the issue of its backlogged responses, Indian Affairs elevated the responsibility for
timely action to Bureau Directors and other individuals at the Senior Executive Service level.
Indian Affairs also mandated training to all managers and supervisors to help clear the backlog,
and is working to ensure that no further backlogs develop. Recent initiatives have resulted in
promising progress, but, based on historical backlogs, we are not convinced that these changes
are sustainable long-term without continuous OIG oversight.




                                                                                                     7
Insular Areas
DOI seeks to increase Federal responsiveness to the needs of the Insular Areas through the
Office of Insular Affairs (OIA). OIA works to improve the financial management practices of the
Insular Area governments and to increase economic development opportunities through financial
and technical assistance. The FY2011 budget for the Insular Areas includes $85 million for
capital improvements, operation, and technical assistance to the four U.S. territories; $220
million for the programs of the three nations under the Compacts of Free Association; and $145
million in tax-related payments to the U.S. Virgin Islands and Guam. Overall, OIA annually
funds the Insular Area government programs that focus on education, health care, infrastructure
improvement, public sector capacity building, private sector development, and the environment.
In addition, the Department of Defense FY2011 budget includes a proposal to transfer $10.1
million to OIA for costs related to the military build-up on Guam.

The imminent relocation of thousands of U.S. military personnel and their dependents from
Okinawa, Japan to Guam is a huge challenge on many fronts, including the creation of a Federal
Government-wide funding strategy for needed civilian infrastructure upgrades. OIG is currently
examining Guam Power Authority’s (GPA) ability to account properly for the maintenance and
condition of key infrastructure components and assessing their efforts to expand service capacity,
increase reliability, assure continuity of service for critical facilities, prepare for contingencies,
and incorporate alternative energy sources. OIG sees improvements needed in increasing
reliability, maintaining key infrastructure components, and incorporating renewable energy.
While GPA has established plans for the impact of the build-up on Guam, uncertainties over the
actual relocation date and funding sources and amounts have prevented GPA from executing its
plans. The relocation, however, presents a significant economic opportunity for the island.

Our reviews have found that many of the Insular Area governments lack the resources necessary
to adequately prevent and detect fraud, waste, and abuse involving Government-funded
programs. Although the Insular Areas have made some improvements in this area, OIA must
provide greater oversight and implement a more active approach to assisting the Insular Area
governments.

Reviews have also identified ongoing management and financial problems in the Insular Areas.
For example, internal control weaknesses previously reported by OIG and GAO continue to
exist, according to a recent GAO report. The report states that about 40 percent of grant projects
funded through OIA have weaknesses, to include insufficient reporting and record-keeping
discrepancies in grant recipient activities; joint activity between grant recipients and OIA; and
OIA’s grant management, which may increase susceptibility to mismanagement. OIG has found
that some Insular Area governments do not have sufficient resources to investigate and pursue
prosecution of those involved in theft of Government funds.

Over the past 6 to 8 years, OIG’s initiative in Hawaii and the Pacific Insular Areas has focused
on capacity building through leveraging OIG resources with those of the Insular Areas Public
Auditors to capitalize on efficiencies gained by a more effective use of workforces. OIG has
worked to expand both the capacity of the local Offices of the Public Auditors (OPA) as well as
their efforts toward strong financial and program accountability in the Insular Areas.


                                                                                                     8
OIG has also worked with OIA to implement an OPA training program rotating OPA staff to
various OIG mainland regional offices for on-the-job training opportunities. This training
program is designed for a greater self-sufficiency and a significantly increased capacity for
OPAs, thereby enabling them to monitor the expenditures of Federal and local funds to the
mutual benefit of all parties. OIG has looked to involve other Federal OIGs and program officials
that provide Federal funds to the Insular Area governments to help strengthen controls over grant
monies and bring the governments in line with standard business practices.

Building on past successful efforts, OIG will concentrate its efforts on providing increased
technical assistance, training, fraud awareness, and outreach support to OPAs and the Insular
Area governments. OIG is hopeful that this emphasis continues to strengthen the OIG’s capacity-
building and resource-leveraging effort with OPAs and their challenge in overseeing the
financial and program resources and activities of the Insular Area governments.

Recent reviews have also focused on ongoing energy issues and challenges in the management of
the Insular Areas’ capital improvement projects. OIG is currently evaluating the areas of health
care, the viability of the U.S. Virgin Islands’ retirement system, and the administrative functions
of the U.S. Virgin Islands’ legislature.

DOI stated that OIA has developed goals and strategies to help identify areas of greatest need,
including implementation of a new 2012-2016 Strategic Plan goal to Empower Insular
Communities and development of associated performance measures. According to DOI, OIA is
demonstrating leadership in developing partnerships to gather Gross Domestic Product statistics,
development of energy assessments and sustainable and renewable energy plans, safety
assessments of schools, economic opportunities for small businesses, and planning for
diversification of island economies. DOI also stated that OIA supports the efforts of associations
of senior Insular Area officials to improve financial management, revenue and collections,
audits, and workforce development. OIG will review these programs as necessary to ensure
improvement.

5. Cobell and Indian Land Consolidation

In December 2009, the Secretary announced the settlement of the long-running and highly
contentious Cobell class-action lawsuit regarding the U.S. Government’s trust management and
account of over 300,000 individual American Indian trust accounts. Congress approved the $3.4
billion Cobell settlement on November 30, 2010 (Claims Resolution Act of 2010). The President
signed the settlement on December 8, 2010, and the U.S. District Court approved the final
settlement on August 4, 2011.

Indian land fractionation is a large part of the settlement and has been a major challenge for
many years. The Cobell settlement presents new challenges to DOI. As far back as1960, the
Chairman of the House Committee on Interior and Insular Affairs stated:

       For many years we have recognized that one of the most serious problems facing our
       American Indian population is that of [inherited] land. With each passing generation the


                                                                                                  9
       difficulties of solving this problem multiply and if some solution is not forthcoming it
       will be so acute by the turn of the century that the Federal Government will be unable to
       bear the burden of handling the administration of the land and the Indians will find their
       estate so fractionated that their utilization will be nearly impossible.

The General Allotment Act of 1887 divided Tribal land into parcels and allotted them to
individual Indians. Because wills were not widely used, smaller and smaller land interests
descended to successive generations thereby fractionating the land. Land fractionation limits the
tribes’ productive use of the land and creates jurisdictional issues. It also requires that BIA and
the Office of the Special Trustee for American Indians devote a significant portion of their
budgets to administer the fractionated land interests.

To address land fractionation, the settlement established a $1.9 billion fund for the voluntary
buy-back and consolidation of fractionated land interests. The land consolidation program will
provide individual American Indians with an opportunity to obtain cash payments for the sale of
their undivided land interests and provide tribal communities with the economic benefit resulting
from better use of the land.

Recent OIG reviews disclosed the need for better communication and coordination among the
many offices throughout DOI that are involved in Indian land consolidation efforts. Our January
2011 evaluation report focused on opportunities designed to improve communication,
coordination, and identification of needed resources. Subsequent OIG advisory reports have
focused on appraisal tools needed to help the land consolidation program succeed, such as a mass
appraisal system and a centralized tracking system at the Office of Appraisal Services within the
Office of the Special Trustee for American Indians.

As part of its planning for Indian land consolidation, DOI is conducting tribal consultation
meetings throughout the Nation. These meetings are an important step in Departmental efforts to
develop a comprehensive plan to reduce fractionation. The many DOI offices that will be
involved in land consolidation efforts have also done significant work to prepare for the planning
and implementation of the eventual Indian land consolidation project. During this time, OIG
continues its effort to monitor and evaluate the accountability of funding provided to DOI in the
settlement. The Department is working with the OIG to provide updates on planning for the
Cobell land consolidation efforts.

6. Operational Efficiencies

DOI, like other Government agencies, faces new economic challenges in anticipation of
significant budgetary cuts. The recently enacted Budget Control Act of 2011 set ceilings on total
discretionary spending and calls for significant deficit reduction over the next decade. In
addition, the Accountable Government Initiative has called for significant change in the way
Government does business and has outlined strategies for cutting waste, reforming contracting,
closing the information technology gap, and promoting accountability and innovation through
open Government. In response to these mandates, management must identify waste, identify



                                                                                                 10
overlapping programs and functions, and reorder priorities to operate with limited discretionary
spending.
According to the FY2012 DOI budget submission, the budget includes $99.4 million in
reductions reflecting administrative cost savings as part of the Accountable Government
Initiative. DOI will implement these reductions by changing how it manages travel, employee
relocation, acquisition of supplies and printing services, and the use of advisory services. These
reductions complement $62 million in travel, information technology, and strategic sourcing
savings identified as part of DOI’s FY2011budget request, along with bureau-specific
efficiencies. DOI does not expect the proposed savings in administrative functions to have an
impact on programmatic performance.

DOI’s ability to achieve administrative cost savings will be critical to its success in limiting
overall discretionary spending. DOI has embarked on an aggressive effort to curb non-essential
administrative spending, but leveraging these initiatives to realize savings with minimal
programmatic impact will be a continuous challenge in the years ahead.

Keeping in line with DOI’s strategic plan mission area of building a 21st century DOI,
Departmental Chief Information Officers (CIO) have worked together to evaluate options to
reduce duplication and parallel investment in information technology (IT) infrastructure with the
objective of identifying immediate and long-term solutions for realizing efficiencies and cost
savings across DOI’s IT environment. The CIOs identified five focus areas for efficiency and
cost savings, which include:

       •   risk-based information security services;
       •   infrastructure consolidation;
       •   unified messaging;
       •   workstation ratio reduction; and
       •   radio site consolidation.

The Department issued an IT Transformation Strategic Plan in July 2011 to guide these efforts
and the CIOs are developing strategies within each of the focus areas to identify the potential for
short- and long-term savings.

DOI can realize cost savings by using alternatives to travel for long-distance meetings such as
teleconferencing; video teleconferencing (VTC); and shared Web sites or Web-conferencing,
which enable real-time communication and document sharing. DOI plans to leverage its current
inventory of VTC facilities by making them available to all bureaus and offices to maximize use.
OIG has cataloged all DOI VTC sites and equipment and identified potential cost efficiencies
VTC might provide. In addition to leveraging VTC technology, DOI also plans to issue travel
targets against which managers can track travel spending throughout the year and reinforce
smarter travel practices that emphasize highest priority mission travel.

Many opportunities exist for improvement in operational efficiencies. OIG recognizes DOI’s
active approach to address the Accountable Government Initiative, yet challenges remain. OIG
will continue to monitor DOI’s progress in these areas and conduct reviews as appropriate.


                                                                                                 11
Conclusion

Working with DOI officials, OIG identified energy management, climate change, water
programs, responsibility to Indians and Insular Areas, Cobell and Indian land consolidation, and
operational efficiencies as the most significant management and performance challenges facing
DOI. While DOI has started to address some of the issues related to these challenges, much more
work is needed to ensure greater accountability, promote efficiency and economy in operations,
and establish effective oversight in the activities that comprise DOI’s mission. This report will
assist DOI in identifying the steps needed to develop strategies and implement policies and
processes necessary to sustain improvements in an environment of increasing complexity and
limited resources.




                                                                                              12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
